                                                                 Issue Date
                                                                              July 1, 2009
                                                                 Audit Report Number
                                                                          2009-LA-1011




TO:        William Vasquez, Director, Los Angeles Office of Community Planning and
           Development, 9DD



FROM:      Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: City of Los Angeles Housing Department, Los Angeles, California, Did Not
         Ensure That the Buckingham Place Project Met HOME Program Requirements

                                    HIGHLIGHTS

 What We Audited and Why

      We audited the City of Los Angeles Housing Department (City) as the result of problems
      noted during a prior audit involving HOME Investment Partnerships Program (HOME)-
      funded activities administered by the Community Redevelopment Agency of the City of
      Los Angeles (subrecipient), which was not adequately monitored by the City,
      compounded by concerns stemming from various newspaper articles related to the
      Marlton Square project, which included the Buckingham Place Senior Affordable
      Housing (Buckingham Place) project. Our objective was to determine whether U.S.
      Department of Housing and Urban Development (HUD) funds awarded to Los Angeles
      and administered by the City were administered in accordance with HUD‟s requirements
      for the HOME program as they relate to a specific subrecipient.

 What We Found
      The City improperly allocated HOME program funds for the Buckingham Place project
      to its subrecipient without adequate controls in place to ensure that HOME program
      requirements were met. This condition occurred because the City lacked written
      procedures and had insufficient monitoring controls in place for projects not processed
      and administered through its Affordable Housing Trust Fund Unit.
What We Recommend

     We recommend that the Director of the Los Angeles Office of Community Planning and
     Development require the City to provide documentation supporting the eligibility of the
     $8.5 million HOME funds investment for its proposal to complete the one partially-
     completed building and have it ready for occupancy within two years of the date of this
     report, or repay the funds from nonfederal sources. In addition, the City should establish
     and implement written procedures for projects administered by its subrecipient that are
     not processed through the Affordable Housing Trust Fund Unit.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response


     We provided the City a draft report on June 1, 2009, and held an exit conference with
     City officials on June 10, 2009. The City provided written comments on June 16, 2009.
     It generally agreed with our report.

     The complete text of the auditee‟s response, along with our evaluation of that response,
     can be found in appendix B of this report. The City‟s response also included some other
     attachments related to the new developer and the timeline for completion, which are
     available upon request.




                                              2
                           TABLE OF CONTENTS

Background and Objectives                                                        4

Results of Audit
      Finding 1: The City Improperly Allocated HOME Program Funds for the        7
                 Buckingham Place Project to Its Subrecipient without Adequate
                 Controls in Place to Ensure That HOME Program Requirements
                 Were Met

Scope and Methodology                                                            13

Internal Controls                                                                14

Follow-up on Prior Audits                                                        15

Appendixes

   A. Schedule of Questioned Costs                                               16
   B. Auditee Comments and OIG‟s Evaluation                                      17
   C. Buckingham Place Project Photographs                                       22




                                            3
                     BACKGROUND AND OBJECTIVES
The HOME Program

The HOME Investment Partnerships Program (HOME) is authorized under Title II of the
Cranston-Gonzalez National Affordable Housing Act, as amended, and program regulations are
at 24 CFR (Code of Federal Regulations) Part 92. The HOME program is the largest federal
block grant to participating jurisdictions, designed exclusively to create affordable housing for
low-income households. The program‟s flexibility allows participating jurisdictions to use
HOME funds for grants, direct loans, loan guarantees or other forms of credit enhancement, or
rental assistance or security deposits. The intent of the HOME program is to

       Provide decent, affordable housing to lower income households,
       Expand the capacity of nonprofit housing providers,
       Strengthen the ability of state and local governments to provide housing, and
       Leverage private-sector participation.

The City

Los Angeles, California, is a participating jurisdiction which administers all of its HOME
programs under the City of Los Angeles‟ Housing Department (City). The City typically awards
HOME funds to various subrecipients, developers, and private lenders.

               HOME funds from HUD to the City
                      Fiscal year                              Amount
                          2007                               $40,113,770
                          2006                               $40,413,716
                          2005                               $42,964,023
                         Total                              $123,491,509

The City‟s standard procedures require developers to apply for HOME funding through a notice
of funding availability. The City‟s Affordable Housing Trust Fund Unit reviews each
application. Applications are evaluated and scored according to the criteria established by the
respective leveraging source. The Buckingham Place Senior Affordable Housing (Buckingham
Place) project was allowed to bypass this process. According to the City, the mayor and the city
council have the authority to directly allocate City funds outside the notice of funding
availability process.

The Subrecipient

The Community Redevelopment Agency of the City of Los Angeles (subrecipient) is an
independent agency of the City, established to attract private investment into economically
depressed communities; eliminate slums, abandoned or unsafe properties, and blight throughout
Los Angeles; revitalize older neighborhoods through historic preservation and new development;
build housing for all income levels; encourage economic development; create and retain



                                                4
employment opportunities; and related activities. The subrecipient receives funding from many
sources including the City.

               HOME funds from the City to the subrecipient
                      Fiscal year                           Amount
                         2007                            $13,360,000
                         2006                            $13,000,460
                         2005                            $21,534,413

The Project
The Buckingham Place project is located at 4020 South Buckingham Road, Los Angeles,
California. The project was to consist of 180 units, of which 145 units would be one-bedroom
units and 35 units would be two-bedroom units. The target population for this housing was to be
elderly persons with low, very low, and very, very low incomes. Photographs are shown in
appendix C.

There were several types of funding sources proposed for this project, including $8.5 million in
HOME funds.

Proposed project funding
                        Source                                         Amount
                   HUD HOME funds                                     $8,500,000
        Federal low-income housing tax credits                       $16,506,651
            Hanmi Bank construction loan                             $17,029,467
             Affordable Housing Program                                $700,000
               Deferred development fee                               $2,500,000
                         Total                                       $45,236,118

Developer Partnerships and Relationships

The Buckingham Place project is an abutting part of the Marlton Square project with a common
developer (Capital Vision Equities). The Marlton Square agreement stated, “the Master
Developer desires to construct or cause to be constructed a mixed-use development consisting of
approximately (i) one hundred forty thousand (140,000) to one hundred eighty thousand
(180,000) square feet of commercial space, (ii) one-hundred and forty (140) units of for-sale
housing, (iii) a community facility on approximately nineteen (19) acres of real estate property
bounded by Martin Luther King Jr. Boulevard to the north, Marlton Avenue on the east, Santa
Rosalia Drive on the south, and Buckingham Road on the west in Los Angeles and commonly
referred to as Santa Barbara Plaza.” “In addition to the Project, an entity related to the Master
Developer intends to develop approximately one hundred and eighty (180) units of rental
housing affordable to low-income seniors on approximately three (3) acres of real property
adjacent to and abutting the Property.”

The developer for the senior housing project was Buckingham Place Senior Housing, Limited
Partnership, which was a limited partnership among CVE Housing Partners, Limited Liability
Company, and Mothers in Action. This developer is an entity related to the master developer of


                                                5
the Marlton Square project. The master developer of the Marlton Square project was Marlton
Square Associates, Limited Liability Company, with Capital Vision Equities, Limited Liability
Company, in which Marlton Square Associates, Limited Liability Company, was the master
developer. Capital Vision Equities also goes under the initials CVE. Also, the subrecipient‟s
evaluation file states the following: “Section 1b. Organization of Developer Capital Vision
Equities, LLC, is a California Limited Liability Corporation. It will form Marlton Square
Partners, a Limited Liability Corporation, in order to effectuate this project.” We also noted that
the Chief Executive Officer of Capital Vision Equities was married to the subrecipient‟s project
manager for the Bunker Hill, City Center, and Little Tokyo areas of Los Angeles at the time
Capital Vision Equities was chosen as the developer.

Current Status of the Project

Although the $8.5 million in HOME funds was fully expended and used for eligible purposes to
pay for acquisition and soft costs, the Buckingham Place project is currently incomplete,
unoccupied, and involved in an involuntary bankruptcy proceeding. Only one building
containing 71 units has been completed. There are two mechanics liens that were recorded on
September 20, 2007, and January 22, 2008, respectively, against the real property.

Audit Objective

The objective of the audit was to determine whether HUD funds awarded to and administered by
the City were administered in accordance with HUD‟s requirements for the HOME program as
they relate to a specific subrecipient.




                                                 6
                                RESULTS OF AUDIT

Finding 1: The City Improperly Allocated HOME Program Funds for
           the Buckingham Place Project to Its Subrecipient without
           Adequate Controls in Place to Ensure That HOME Program
           Requirements Were Met
The City improperly allocated HOME program funds for the Buckingham Place project to its
subrecipient without adequate controls in place to ensure that HOME program requirements were
met. Consequently, the subrecipient‟s

   Developer selection process was not competitive as required by 24 CFR 85.36(c)(1);
   Developer procurement was not in compliance with 24 CFR 85.36(b)(8);
   Project cost price analysis was missing, contrary to requirements at 24 CFR 85.36(b)(9); and
   Project monitoring was ineffective.
   Organizational and project performance was ineffective.

This condition occurred because the City lacked written procedures and had insufficient
monitoring controls in place for projects that were not processed and administered through its
affordable housing trust fund process. As a result, while the $8.5 million HOME funds had been
fully expended, it did not fulfill HUD‟s program intent to provide affordable housing for low-
income households. In addition, the project stands incomplete and vacant and is unlikely to be
completed this year.




 Developer Selection Was Not
 Competitive


       On June 6, 2000, the subrecipient issued a combined statement of interest and request for
       proposal to the property owners on record for the Santa Barbara Plaza (now known as
       Marlton Square). Seven responses were received. The responses came from six property
       owners; one of the owners submitted separate replies, both as an owner and a tenant. One
       of the responses came from Capital Vision Equities, a limited liability company. The
       response letter stated, “we have put together a powerful and competent development team
       (Marlton Square Limited LLC) which includes CVE as the project manager, development
       coordinator and managing general partner…” Capital Vision Equities proposed the
       development of 355,000 square feet of new retail space. However, this entity ended up
       being the principal of the Buckingham Place project.




                                                7
     Regulations at 24 CFR 85.36(c)(1) state, “all procurement transactions will be conducted
     in a manner providing full and open competition...” Also, when the competitive proposal
     method is used, requests for proposals are to be publicized, and proposals are to be
     solicited from an adequate number of qualified sources. Capital Vision Equities was
     selected through a procurement process initiated by the subrecipient in June 2000.
     However, the request for proposal only went out to the owners within the Santa Barbara
     Plaza, now known as Marlton Square. While the subrecipient received seven responses,
     only one could be considered as qualified.

     In the case of the Marlton Square project, the selection of Capital Vision Equities to
     develop the Santa Barbara site was not competitive. Therefore, its selection to develop
     the Buckingham Place project was also not competitive. Also, the procurement was not
     conducted in a manner providing open competition because the 2000 statement of
     interest/request for proposal was not publicized and was only issued to the property
     owners. Further, proposals were not solicited from an adequate number of qualified
     sources. In 1996, the subrecipient issued a request for proposal to both the property
     owners and the public, which resulted in the selection of a developer; however, the
     exclusive right to negotiate agreement with this developer was terminated in 1999.

Developer Procurement Was
Not in Compliance

     Federal regulations at 24 CFR 85.36(b)(8) state, “grantees and subgrantees will make
     awards only to responsible contractors possessing the ability to perform successfully
     under the terms and conditions of a proposed procurement. Consideration will be given
     to such matters as contractor integrity, compliance with public policy, record of past
     performance, and financial and technical resources.”

     In the case of the Marlton Square project, the subrecipient selected Capital Vision
     Equities as the developer when the equity contribution from the developer was only 5.9
     percent. However, according to the subrecipient‟s evaluation team “the developer‟s
     equity should have been at a minimum of 15 to 20 percent in „hard‟ not „soft‟ terms.”
     This action indicates the potential for financial problems. In addition, the developer or
     development entity lacked specific retail development experience and the experience
     needed to develop such a sizable project. Also, we only found incomplete (and
     unaudited) financial statements for Capital Vision Equities for the development of the
     Buckingham Place project.

Cost Price Analysis Was
Missing

     According to 24 CFR 85.36(b)(9), “grantees and subgrantees will maintain records
     sufficient to detail the significant history of a procurement.” Additionally, 24 CFR
     85.36(f)(1) states, “grantees and subgrantees must perform a cost or price analysis in
     connection with every procurement action… to determine the reasonableness of the


                                              8
    proposed contract price.” With the Marlton Square project, for the subrecipient‟s
    evaluation team to make the statement, “the proposed cost of development (excluding
    land) was excessive...,” it is implied that the subrecipient conducted a cost analysis to
    compare costs and make such determination. However, the subrecipient could not
    provide us with a cost analysis for either the Marlton Square or Buckingham Place
    projects.

Project Monitoring Was
Ineffective


    Although the $8.5 million in HOME funds was fully expended and used to acquire
    properties, relocate owners and tenants, and pay for soft costs, the project was not
    complete. The project did not meet the intent of the HOME program, which is to provide
    decent, affordable housing to lower income households, expand the capacity of nonprofit
    housing providers, strengthen the ability of state and local governments to provide
    housing, and leverage private-sector participation. The City reviewed and approved a
    total of three disbursement requests; however, these reviews were inadequate to
    effectively monitor the project‟s financial aspects because only two of the three requests
    included the related supporting source documents such as invoices. Also, the cooperation
    agreement between the city and the subrecipient did not include detailed information
    regarding the use of funds. As a result, the City did not have a description of the tasks to
    be performed or a schedule for completion of tasks related to Buckingham Place to
    monitor the project status.

Organizational and Project
Performance Was
Ineffective

    The subrecipient‟s project management was ineffective, which led to the incomplete
    project status and the loss of the project‟s tax credits and construction loan default. A
    review of the subrecipients‟ program manager‟s Crenshaw Community Advisory
    Committee memorandums found that concerns were raised over the project‟s completion.
    The following was noted: “The initial building faces Buckingham Road and is nearing
    completion. The Developer has started excavation for the second building. The
    Developer‟s construction schedule calls for completion of all three buildings by July
    2007. The [subrecipient] is concerned that this anticipated completion date is beyond the
    deadline specified in the project‟s loan agreement.” The photograph below was taken on
    April 29, 2009, and represents the current status of the project.




                                              9
Also, a review of the subrecipients‟ Buckingham Place construction meeting minutes
found that construction meetings were held from March 29, 2006, through July 25, 2007.
On June 13, 2007, the general contractor, S.C. Anderson, Incorporated, did not believe
that the project could be finished by the December 31, 2007, deadline. There were delays
caused by Capital Vision Equities and its consultants not providing (in a timely manner)
all of the required/requested information needed by S.C. Anderson, Incorporated, and the
subcontractors. Further, S.C. Anderson, Incorporated, stated that a new construction
schedule could not be written until it received all of the required information. Also, on
July 25, 2007, grading work was delayed, reportedly due to the lack of funding to the
grader by Capital Vision Equities.

Loss of Tax Credits
We also noted that ineffective project management led to the loss of tax credit funds. As
the California Tax Credit Allocation Committee stated in a letter, dated February 4, 2008,
“federal law requires the 40 percent of the units must have been occupied by qualified
tenants no later than December 31, 2007 in order to be a qualified tax-credit project.” A
visit to the project on January 30, 2008, 30 days after the federal deadline, verified that
the property was not occupied. As a result, the Tax Credit Allocation Committee
“rescinds the balance of the tax credit allocation of $703,143 in annual federal tax credits
and returns these credits to [the Tax Credit Allocation Committee] for reallocation to
other projects.”




                                         10
    Construction Loan Default
    A letter, dated August 16, 2007, from an attorney to the title company regarding
    “Buckingham Place Senior Housing, Limited Partnership – Declaration of Default,”
    stated, “As duly appointed trustee, you are notified of a breach of and default in the
    obligations secured by that certain Construction and Permanent Leasehold Deed of
    Trust…” Specifically, the lender, Hanmi Bank, made a loan to the borrower,
    Buckingham Place Senior Housing, Limited Partnership, and the borrower had failed to
    make the monthly interest payments under the loan and was in arrears in the amount of
    $338,660. The loan began on June 28, 2007, and “matured on July 28, 2007 and the
    borrower has failed to make the required principal payment.” As a result, “the Lender,
    who holds the beneficial interest in the Deed of Trust, makes this declaration of default
    and elects to cause the trust property to be sold to satisfy the obligations secured by the
    Deed of Trust.”

    A second letter, dated August 29, 2007, obtained from the subrecipient to Buckingham
    Place Senior Housing, Limited Partnership, stated, “The Community Redevelopment
    Agency of the City of Los Angeles [subrecipient] has received notification that a default
    has been declared on the construction loan between Buckingham Place Senior Housing,
    Limited Partnership and Hanmi Bank secured against the Buckingham Place Senior
    Housing Project. Pursuant to Section 600E of that certain Construction and Permanent
    Gap Loan Agreement (the „Loan Agreement‟) entered into on September 16, 2003
    between Buckingham Place Senior Housing, Limited Partnership and [subrecipient] a
    default under the Hanmi Bank loan constitutes an event of default under the Loan
    Agreement. [Subrecipient] hereby declares the loan in the amount of $8,500,000
    provided under the terms of the Loan Agreement to be in default. This letter shall serve
    as notice, as required by Section 601 of the Loan Agreement, that you have 15 calendar
    days from the date of receipt of this letter to take action to cure the default.”

    The official notice of default and election to sell under deed of trust was filed on March
    6, 2008, by the subrecipient, and more than $9.4 million was due as of March 3, 2008. A
    second notice of default and election to sell under deed of trust was filed on March 26,
    2008, by Hanmi Bank, and more than $17 million was due as of March 20, 2008. We
    found nothing in the City‟s files to show that an effort had been made on its behalf to get
    involved.

Conclusion


    While the City had controls in place to review the supporting documents before
    disbursement of the HOME funds, it did not monitor the project for timely completion or
    compliance with HOME program requirements. This condition occurred because the
    City lacked written procedures and had insufficient monitoring controls in place for
    projects that were not processed and administered through its affordable housing trust
    fund process. As a result, while the $8.5 million in HOME funds had been fully
    expended, it did not fulfill HUD‟s program intent under 24 CFR Part 92 to provide




                                             11
    affordable housing for low-income households. The project stands incomplete and
    vacant and unlikely to be completed this year.

Recommendations

    We recommend that the Director of the Los Angeles Office of Community Planning and
    Development

       1A. Require the City to submit documentation on the total development costs for the
           project, the HOME-eligible development costs and a proposed cost allocation (in
           accordance with CPD Notice 98-02) that shows that the number of HOME units
           designated at the project is sufficient to determine the eligibility of the $8.5
           million HOME funds investment, and require the City to repay any portion
           deemed ineligible from nonfederal funds.

       1B. Require the City to repay its HOME funds $8.5 million from nonfederal funds
           unless the project is completed and ready for occupancy within two years of the
           date of this report.


       1C. Require the City to establish and implement effective written policies and
           procedures for monitoring its subrecipients‟ projects that were not processed and
           administered through its affordable housing trust fund process.




                                           12
                        SCOPE AND METHODOLOGY

We performed the on-site audit work at the office of the subrecipient located at 354 South Spring
Street, Los Angeles, California, between September 2008 and May 2009. The audit generally
covered July 2004 through June 2007. To accomplish our objectives, we reviewed the City‟s
compliance with applicable laws and HUD regulations. Our primary methodologies included

    Reviewing applicable HUD handbooks.

    Reviewing applicable policies and procedures established by the City and its
     subrecipient.

    Reviewing contracts and agreements between the City and its subrecipient.

    Reviewing contracts between the subrecipient and various entities related to the
     Buckingham Place project.

    Interviewing various HUD personnel within the Office of Community Planning and
     Development.

    Interviewing various City employees and various employees working for the
     subrecipient.

    Reviewing independent public accountant reports for the scope of our audit period for the
     subrecipient.

    Reviewing supporting documents to support drawdowns from HUD and reimbursements
     from the City to the subrecipient.

Before selecting a sample of projects, we decided that the first project of our sample would be
the Buckingham Place project. We selected this project to be the first project of our review for
two reasons: (1) this project is one of the HOME projects administered by the subrecipient that
has generated the most media attention, and (2) because of the large amount of funding spent on
this project as compared to the other projects in our universe of 16 HOME funded projects on the
City and subrecipient‟s lists of projects.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               13
                              INTERNAL CONTROLS

Internal control is an integral component of an organization‟s management that provides
reasonable assurance that the following objectives are achieved:

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls relate to management‟s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls


       We determined the following internal control was relevant to our audit objective:

              Compliance with federal laws and HOME program regulations.

       We assessed the relevant control identified above.

       A significant weakness exists if internal controls do not provide reasonable assurance that
       the process for planning, organizing, directing, and controlling program operations will meet
       the organization‟s objectives.

 Significant Weaknesses

       Based on our review, we believe the following items are significant weaknesses:

       The City did not

              Comply with federal laws and HOME program requirements regarding policies
              and procedures (see finding 1).

              Comply with federal laws and HOME program rules for monitoring subrecipients
              (see finding 1).




                                                14
                    FOLLOW-UP ON PRIOR AUDITS


Audit of the City of Los Angeles
Housing Department – HOME
Affordability Monitoring and
Inspections, 2008-LA-1016, Dated
September 18, 2008

     We audited the City‟s HOME affordability monitoring and inspection requirements
     regarding HOME-assisted rental units, prompted by the prior audit (2008-LA-1004),
     which detected problems in this area. We found that the City did not comply with
     HOME affordability monitoring and inspection requirements for its HOME-assisted
     rental housing. It failed to maintain the required tenant eligibility information for 26
     HOME-assisted rental housing projects totaling nearly $38 million. In addition, it did not
     maintain complete tenant eligibility information, did not ensure that its contractor
     conducted occupancy monitoring in accordance with HOME program requirements, and
     failed to inspect HOME-assisted rental housing projects when required. On December 2,
     2008, we entered into management decisions with HUD to correct the items in the
     recommendations, which have a target completion date of September 18, 2009.

Audit of the City of Los Angeles
Housing Department Rehabilitation of
Four HOME-Funded Projects,
2009-LA-1007, Dated
February 20, 2009


     We audited the City as a result of the prior audit (2008-LA-1016), which detected four
     projects that may not have been rehabilitated as intended. We found that the City did not
     always ensure that its HOME-assisted rehabilitation work was complete and in
     accordance with HOME requirements. Of the four projects, we found one project in
     which the City paid $22,466 in HOME funds for incomplete rehabilitation work. On
     June 19, 2009, we entered into management decisions with HUD to correct the items in
     the recommendations, which have a target completion date of February 20, 2010.




                                             15
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                           Recommendation         Unsupported 1/
                               number
                                  1A                  $8,500,000




1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures. The unsupported costs are HOME funds that
     the City allocated to its subrecipient without adequate controls to ensure that the HOME
     program requirements were met. In this situation, the City has proposed an alternative
     plan to complete the one partially-completed project, however, there was not enough
     information at the time the report was issued to determine whether this would satisfy the
     HOME program requirements.




                                             16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         17
18
19
20
                         OIG Evaluation of Auditee Comments

Comment 1   Based on the City‟s proposed alternative, we revised the recommendations to
            require the City to provide documentation supporting the eligibility of the $8.5
            HOME funds investment for its proposal to complete the one partially-completed
            building and have it ready for occupancy within two years of the date of this
            report, or repay the funds from nonfederal sources.




                                           21
                                    APPENDIXES

Appendix C

        BUCKINGHAM PLACE PROJECT PHOTOGRAPHS




View of the front of the one building (71 units) that was essentially completed. It remains
unoccupied due to the need to complete some final work items and obtain occupancy
permits.




  View of the back of the one building shown above that was essentially completed. The
  fenced area has the two pads where the other two buildings were intended to be built.




                                             22
